Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




NEVADA STATE MEDICAID FRAUD
       CONTROL UNIT:
    2012 ONSITE REVIEW




                        Stuart Wright
                  Deputy Inspector General for
                   Evaluation and Inspections

                       September 2013
                       OEI-09-12-00450
NEVADA STATE MEDICAID FRAUD CONTROL UNIT:
2012 ONSITE REVIEW
OEI-09-12-00450

WHY WE DID THIS STUDY
The Office of Inspector General (OIG) oversees all State Medicaid Fraud Control Units 

(MFCU or Unit) with respect to Federal grant compliance. As part of this oversight, 

OIG annually reviews and certifies all Units. In addition, OIG conducts onsite reviews of 

selected States. These reviews assess Unit performance in accordance with the 12 MFCU 

performance standards and monitor Unit compliance with Federal grant requirements,

laws, and regulations. 


HOW WE DID THIS STUDY
We analyzed data from seven sources: (1) a review of documentation, policies, and
procedures related to the Unit’s operations, staffing, and caseload; (2) a review of
financial documentation; (3) structured interviews with key stakeholders; (4) a survey of
Unit staff; (5) structured interviews with the Unit’s management and selected staff; (6) an
onsite review of case files; and (7) an onsite review of Unit operations.

WHAT WE FOUND
From fiscal years 2009 through 2011, the Unit reported recoveries of $13.4 million, Unit
convictions increased, and the Unit opened 262 cases. All reviewed case files contained
documentation indicating supervisory approval to open and close cases, and we found
that almost all case files contained documentation indicating periodic supervisory
reviews. Unit professional staff occasionally performed non-Unit duties, however. In
addition, the Unit’s policies and procedures manual and its memorandum of
understanding (MOU) with Nevada’s State Medicaid agency—the Division of Health
Care Financing and Policy (DHCFP)—were not updated, and the Unit did not always
comply with the MOU provisions. The Unit maintained proper fiscal control of its
resources, but incorrectly claimed indirect costs. Except for the use of Unit professional
staff for non-Unit duties, an MOU stipulation that the Unit assist DHCFP in obtaining
funding for data requests, and the overclaiming of indirect costs, we found no evidence of
noncompliance with applicable laws, regulations, and policy transmittals.

WHAT WE RECOMMEND
We recommend that the Nevada Unit (1) ensure that Unit professional staff exclusively
perform Unit duties, (2) revise its policies and procedures manual, (3) revise its MOU
with DHCFP, (4) comply with the MOU provisions, and (5) ensure that it correctly
claims indirect costs. In its written comments to our draft report, the Unit did not indicate
whether it concurred with each of the recommendations. However, the Unit described
actions that it has taken, or plans to take, to address each of the recommendations
TABLE OF CONTENTS
Objective ......................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................4 

Findings........................................................................................................7 

       From FY 2009 through FY 2011, the Unit reported recoveries                                               

       of $13.4 million, Unit convictions increased, and the Unit 

       opened 262 cases..............................................................................7 

       All reviewed case files contained documentation indicating 

       supervisory approval to open and close cases and almost all 

       case files contained documentation indicating periodic 

       supervisory reviews .........................................................................8 

       Unit professional staff performed non-Unit duties and the 

       associated costs were not subtracted from claimed Unit 

       expenditures .....................................................................................9 

       The Unit’s policies and procedures manual was not updated, 

       and the Unit’s MOU with DHCFP did not reflect current law 

       and practice ......................................................................................9 

       The Unit did not always comply with the MOU provisions ..........11

       The Unit maintained proper fiscal control of its resources, but 

       incorrectly claimed indirect costs ..................................................11

       Other Observation: Provider Outreach and “Train the Trainer” 

       Programs ........................................................................................12 

Conclusion and Recommendations ............................................................13 

       Unit Comments and Office of Inspector General Response ..........15 

Appendixes ................................................................................................16 

       A: Performance Standards for Medicaid Fraud Control Units .....16 

       B: Referrals of Provider Fraud and Patient Abuse and Neglect 

       to the Nevada Medicaid Fraud Control Unit by Source, Fiscal 

       Years 2009 Through 2011 ..............................................................21 

       C: Investigations Opened and Closed by Provider Category                                              

       and Case Type, Fiscal Years 2009 Through 2011 ..........................22 

       D: Case File Review Population, Sample Size Counts, and 

       Confidence Interval Estimates .......................................................24 

       E: Unit Comments.........................................................................26 

Acknowledgments......................................................................................28 

                  OBJECTIVE
                  To conduct an onsite review of the Nevada State Medicaid Fraud Control
                  Unit (MFCU or Unit).

                  BACKGROUND
                  The mission of State MFCUs, as established by Federal statute, is to
                  investigate and prosecute Medicaid provider fraud and patient abuse and
                  neglect under State law.1 Pursuant to Title XIX of the SSA, each State
                  must maintain a certified Unit unless the Secretary of Health and Human
                  Services (HHS) determines that operation of a Unit would not be
                  cost-effective because (1) minimal Medicaid fraud exists in that State; and
                  (2) the State has other, adequate safeguards to protect Medicaid
                  beneficiaries from abuse and neglect.2 Currently, 49 States and the
                  District of Columbia (States) have created such Units.3 In fiscal year
                  (FY) 2012, combined Federal and State grant expenditures for the Units
                  totaled $217.3 million, of which Federal funds represented
                  $162.9 million.4 That year, the 50 Units employed 1,901 individuals.5
                  Each Unit must employ an interdisciplinary staff that consists of at least an
                  investigator, an auditor, and an attorney to carry out its duties and
                  responsibilities in an effective and efficient manner.6 The staff reviews
                  complaints provided by the State Medicaid agency and other sources and
                  determines their potential for criminal prosecution and/or civil action.
                  Collectively, in FY 2012, the 50 Units reported 1,337 convictions and
                  823 civil settlements or judgments. That year, the Units reported
                  recoveries of approximately $2.9 billion.7



                  1
                    Social Security Act (SSA) § 1903(q).

                  2
                    SSA § 1902(a)(61). Regulations at 42 CFR 1007.11(b)(1) add that the Unit’s 

                  responsibilities may include reviewing complaints of misappropriation of patients’ 

                  private funds in residential health care facilities. 

                  3
                    North Dakota and the territories of American Samoa, Guam, the Northern Mariana 

                  Islands, Puerto Rico, and the U.S. Virgin Islands have not established Units. 

                  4
                    All FY references in this report are based on the Federal FY (October 1 through

                  September 30).

                  5
                    Office of Inspector General (OIG), State Medicaid Fraud Control Units Fiscal Year 

                  2012 Grant Expenditures and Statistics. Accessed at http://oig.hhs.gov/fraud/medicaid-
                  fraud-control-units-mfcu/ on March 19, 2013. 

                  6
                    SSA § 1903(q)(6) and 42 CFR § 1007.13.

                  7
                    OIG, State Medicaid Fraud Control Units Fiscal Year 2012 Grant Expenditures and 

                  Statistics. Pursuant to 42 CFR § 1007.17, Units report the total amount of recovered 

                  funds in their annual reports to OIG.



Nevada State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00450)                             1
                  Units are required to have either statewide authority to prosecute cases or
                  formal procedures to refer suspected criminal violations to an office with
                  such authority.8 In Nevada and 43 other States, the Units are located with
                  offices of State Attorneys General that have this authority. In the
                  remaining six States, the Units are located in other State agencies;9
                  generally, such Units must refer cases to offices with prosecutorial
                  authority. Additionally, each Unit must be a single, identifiable entity of
                  State government, distinct from the State Medicaid agency, and each Unit
                  must develop a formal agreement—e.g., a memorandum of understanding
                  (MOU)—that describes the Unit’s relationship with that agency.10
                  Oversight of the MFCU Program
                  The Secretary of HHS delegated to OIG the authority to both annually
                  certify the Units and administer grant awards to reimburse States for a
                  percentage of their costs of operating them.11 All Units are currently funded
                  by the Federal Government on a 75-percent matching basis, with the States
                  contributing the remaining 25 percent.12 To receive Federal reimbursement,
                  each Unit must submit an initial application to OIG.13 OIG reviews the
                  application and notifies the Unit if it is approved and the Unit is certified.
                  Approval and certification are valid for a 1-year period; the Unit must be
                  recertified each year thereafter.14
                  Pursuant to Title XIX of the SSA, States must operate Units that effectively
                  carry out their statutory functions and meet program requirements.15 OIG
                  developed and issued 12 performance standards to define the criteria that
                  OIG applies in assessing whether a Unit is effectively carrying out statutory
                  functions and meeting program requirements.16 Examples include
                  maintaining an adequate caseload through referrals from several sources,
                  maintaining an annual training plan for all three of the professional

                  8
                    SSA § 1903(q)(1).

                  9
                    In States with a Unit, the Unit shares responsibility for protecting the integrity of the 

                  Medicaid program with the section of the State Medicaid agency that functions as the

                  Program Integrity Unit. Some States also employ a Medicaid Inspector General who 

                  conducts and coordinates anti-fraud, waste, and abuse activities for the State agency. 

                  10
                     SSA § 1903(q)(2) and 42 CFR § 1007.9(d). 

                  11
                     The portion of funds reimbursed to States by the Federal Government for its share of

                  expenditures for the Federal Medicaid program, including the MFCUs, is referred to as 

                  Federal Financial Participation.

                  12
                     SSA § 1903(a)(6)(B).

                  13
                     42 CFR § 1007.15(a). 

                  14
                     42 CFR § 1007.15(b) and (c). 

                  15
                     SSA § 1902(a)(61).

                  16
                     59 Fed. Reg. 49080 (Sept. 26, 1994). Accessed at http://oig.hhs.gov on

                  November 22, 2011. Prior to the time of our onsite data collection (July–August 2012), 

                  OIG published a revision of the performance standards, 77 Fed. Reg. 32645 

                  (June 1, 2012). The performance standards referred to in this report are from 1994 and 

                  were in effect during the time of our review period (FYs 2009 through 2011). 



Nevada State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00450)                                2
                  disciplines (i.e., for auditors, investigators, and attorneys), and establishing
                  policy and procedures manuals to reflect the Unit’s operations. See
                  Appendix A for a complete list of the performance standards.
                  Nevada Unit
                  The Unit is an autonomous entity within the Bureau of Criminal Justice of
                  the Nevada Office of the Attorney General and has the authority to
                  prosecute Medicaid fraud and patient abuse and neglect cases. At the time
                  of our review, the Unit’s 18 employees were divided between 2 offices.
                  The Unit Director and 11 additional employees were located at the Unit’s
                  “South” office in Las Vegas. The Chief Investigator and five additional
                  employees were located at the Unit’s “North” office in the State capital of
                  Carson City. The Unit Director directly supervises all South office
                  employees, supervises the Chief Investigator, and acts as the Chief
                  Attorney. The Chief Investigator directly supervises all North office
                  employees.
                  The Unit receives referrals of provider fraud from the State Medicaid
                  agency—the Nevada Division of Health Care Financing and Policy
                  (DHCFP)—and from Federal agencies, such as OIG. The Unit receives
                  referrals of patient abuse and neglect from the Nevada Bureau of Health
                  Care Quality and Compliance (BHQC) and the Nevada Aging and
                  Disability Services Division. In addition, the Unit receives referrals from
                  other State and local agencies, from the public through a Medicaid Fraud
                  Report hotline, and from an electronic form available on the Nevada
                  Attorney General’s Web site. 17 For additional information on Unit
                  referrals, see Appendix B.
                  Upon receipt of a referral, Unit administrative assistants enter the referral
                  and related information into the Unit’s case file tracking system. On a
                  biweekly basis, the Unit’s Director, Chief Investigator, and a Unit attorney
                  screen these referrals and decide whether to proceed with the
                  investigations or refer the cases to another agency. For additional
                  information on the Unit’s opened and closed investigations, including a
                  breakdown by case type and provider category, see Appendix C.
                  The Unit Director assigns an investigator and attorney to cases that are
                  accepted for investigation; the assigned investigator and attorney then
                  meet to plan the case strategy. The Unit may open a case and pursue it
                  through a variety of actions, including criminal prosecution, civil action,
                  or a combination of the two. The Unit may close a case for a variety of
                  reasons, including, but not limited to, resolving it through criminal and/or
                  civil action or referring it to another agency.

                  17
                    The Unit will occasionally open cases that were not formally referred by an outside
                  source. For example, a case may be brought to the Unit’s attention by the media.


Nevada State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00450)                            3
                  Previous Review
                  In 2007, OIG conducted an onsite review of the Nevada Unit and found it
                  to be “in general compliance with all applicable Federal rules and
                  regulations.” However, the review identified a concern related to the use
                  of MFCU grant funds to pay the salaries of two non-MFCU personnel.
                  The Unit subsequently reimbursed the Federal government for the related
                  unallowable costs.18

                  METHODOLOGY
                  We analyzed data from seven sources: (1) a review of documentation,
                  policies, and procedures related to the Unit’s operations, staffing, and
                  caseload for FYs 2009 through 2011; (2) a review of financial
                  documentation for FYs 2009 through 2011; (3) structured interviews with
                  key stakeholders; (4) a survey of Unit staff; (5) structured interviews with
                  the Unit’s management and selected staff; (6) an onsite review of case
                  files that were open in FYs 2009 through 2011; and (7) an onsite review of
                  Unit operations.
                  We analyzed data from all seven sources to describe the caseload and
                  assess the performance of the Unit. We also analyzed the data to identify
                  any opportunities for improvement and any instances in which the Unit
                  did not meet the performance standards or was not operating in
                  accordance with laws, regulations, and policy transmittals.19 In addition,
                  we noted any practices that appeared to benefit the Unit. We based these
                  observations on statements from Unit staff, data analysis, and our own
                  judgment. We did not independently verify the effectiveness of these
                  practices, but included the information because it may be useful to other
                  Units in their operations.
                  We conducted the onsite review in July–August 2012.
                  Data Collection and Analysis
                  Review of Unit Documentation. We reviewed documentation, policies,
                  and procedures related to the Unit’s operations, staffing, and cases,
                  including its annual reports, quarterly statistical reports, and responses to
                  recertification questionnaires. We reviewed this documentation to
                  determine how the Unit investigates and prosecutes Medicaid cases. Data
                  collected included information such as the number of referrals received by
                  the Unit and the number of investigations opened and closed.




                  18
                    This 2012 onsite review of the Unit found no indication that this issue persisted.
                  19
                    All relevant regulations, statutes, and policy transmittals are available online at
                  http://oig.hhs.gov.


Nevada State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00450)                            4
                  Review of Financial Documentation. To evaluate internal controls of
                  fiscal resources, OIG auditors reviewed policies and procedures related to
                  the Unit’s budgeting, accounting systems, cash management, procurement,
                  property, and personnel. We obtained from the Unit its claimed grant
                  expenditures for FYs 2009 through 2011 to (1) review final Federal Status
                  Reports20 and supporting documentation, (2) select and review transactions
                  within direct cost categories to determine if costs were allowable, and
                  (3) verify that indirect costs were accurately computed using the approved
                  indirect cost rate. Finally, we reviewed records in the HHS Payment
                  Management System (PMS)21 and revenue accounts to identify any
                  unreported program income.22
                  Interviews With Key Stakeholders. We conducted structured interviews
                  with nine individual stakeholders among five agencies who were familiar
                  with Unit operations. Specifically, we interviewed DHCFP’s Surveillance
                  Utilization Review System (SURS) Manager; the BHQC’s Facilities
                  Inspection Manager; the BHQC’s Long-Term Care Ombudsman; two
                  Assistant U.S. Attorneys based in Las Vegas; the Nevada Attorney
                  General’s Chief of Staff; the Nevada Attorney General’s First Assistant;23
                  an OIG Special Agent based in Las Vegas; and an OIG Assistant Special
                  Agent in Charge for the State of Nevada. These interviews focused on the
                  Unit’s interaction with external agencies, Unit operations, opportunities
                  for improvement, and any practices that appeared to benefit the Unit and
                  that may be useful to other Units in their operations.
                  Survey of Unit Staff. We conducted an electronic survey of Unit staff.24
                  We requested and received responses from 15 nonmanagerial staff
                  members, for a 100-percent response rate.25 Our questions focused on
                  operations of the Unit, opportunities for improvement, and practices that
                  appeared to benefit the Unit and that may be useful to other Units in their



                  20
                     The Unit transmits financial status reports to OIG’s Office of Management and Policy
                  (OMP) on a quarterly and annual basis. These reports detail Unit income and
                  expenditures.
                  21
                     The PMS is a grant payment system operated and maintained by the HHS Program
                  Support Center, Division of Payment Management. The PMS provides disbursement,
                  grant monitoring, reporting, and cash management services to awarding agencies and
                  grant recipients, such as Units.
                  22
                     Program income is defined as “gross income received by the grantee or subgrantee
                  directly generated by a grant supported activity, or earned only as a result of the grant
                  agreement during the grant period.” 45 CFR § 92.25(b).
                  23
                     The Attorney General’s Chief of Staff and First Assistant supervise the Unit Director.
                  24
                     We did not survey one of the Unit’s nonmanagerial auditors because we interviewed
                  that auditor onsite.
                  25
                     This report uses the terms “management” and “supervisors” interchangeably. “Non-
                  management” employees are Unit staff members who have no supervisory authority.


Nevada State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00450)                                5
                  operations. The survey also sought information about the Unit’s
                  compliance with applicable laws, regulations, and policy transmittals.
                  Interviews With Unit Management and Selected Staff. We conducted
                  structured interviews with the Unit’s Director (Chief Attorney), Chief
                  Investigator, and an auditor. We asked them to provide us with additional
                  information necessary to better understand the Unit’s operations, identify
                  opportunities for improvement, identify practices that appeared to benefit
                  the Unit and that may be useful to other Units in their operations, and
                  clarify information obtained from other data sources.
                  Onsite Review of Case Files. We selected a simple random sample of
                  80 case files from the 262 cases26 that were open at any point from
                  FY 2009 through FY 2011. The design of this sample allowed us to
                  estimate the percentage of all 262 cases with various characteristics at the
                  95-percent confidence level. We reviewed these 80 sampled case files and
                  the Unit’s processes for monitoring the status and outcomes of cases.
                  From these 80 case files, we selected another simple random sample of
                  45 for a more in-depth review of potential issues. This second-phase
                  sample allowed us to conduct a more comprehensive review of case files
                  to identify other potential issues from a qualitative perspective. For
                  population and sample size counts, as well as confidence interval
                  estimates, see Appendix D.
                  Onsite Review of Unit Operations. While onsite, we reviewed the Unit’s
                  operations. Specifically, we observed intake of referrals, data analysis
                  operations, security of data and case files, and the general functioning of
                  the Unit.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.27




                  26
                     This figure includes cases opened before FY 2009 that remained open at some point
                  during FYs 2009–2011. 

                  27
                     Full text of these standards is available online at http://www.ignet.gov/pande/ 

                  standards/oeistds11.pdf. 



Nevada State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00450)                           6
                  FINDINGS
                  From FY 2009 through FY 2011, the Unit reported
                  recoveries of $13.4 million, Unit convictions
                  increased, and the Unit opened 262 cases
                  From FY 2009 through FY 2011, the Unit reported total criminal and civil
                  recoveries of $13.4 million—an annual average of $4.5 million (see
                  Table 1). Of the $13.4 million in recoveries, the Unit attributed
                  $12.6 million to civil recoveries and $766,000 to criminal recoveries.
                  Global28 case judgments and settlements accounted for $10.7 million of
                  the total civil recoveries and global cases accounted for 190 of the Unit’s
                  262 cases over the 3-year period. The Unit’s annual average expenditures
                  for FYs 2009 through 2011 were $1.6 million.29
                  Table 1: Nevada Unit Reported Recovered Funds, FYs 2009 Through 2011
                                                                                            3-Year       Annual
                                                FY 2009         FY 2010      FY 2011
                                                                                             Total      Average

                    Reported Criminal
                                                 $4,675        $119,814     $641,552      $766,041     $255,347
                    Recoveries

                    Global
                                             $5,557,737       $2,494,568   $2,619,011   $10,671,316   $3,557,105
                    Recoveries

                    Non-Global Civil
                                                $50,000       $1,226,788    $688,138     $1,964,926    $654,975
                    Recoveries

                    Total Reported
                                             $5,612,412       $3,841,170   $3,948,701   $13,402,283   $4,467,427
                    Recoveries

                    Total
                                             $1,549,762       $1,603,654   $1,721,663    $4,875,079   $1,625,026
                    Expenditures

                  Source: Data provided by the Unit to OIG.




                  From FY 2009 through FY 2011, Unit convictions increased
                  From FY 2009 through FY 2011, the Unit obtained 27 convictions and
                  reported 37 civil judgments and settlements—an annual average of
                  9 convictions and 12.3 civil judgments and settlements (see Table 2).




                  28
                     Unit-reported recoveries include funds recovered from multi-State, or “global,” civil
                  false claims cases, both those worked directly by the Unit and those worked by staff from
                  other Units.
                  29
                     The figures presented in this paragraph are rounded.


Nevada State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00450)                                 7
                  Table 2: Unit Convictions and Civil Judgments and/or Settlements,
                  FYs 2009 Through 201130
                                                                                            3-Year   Annual
                                                              FY 2009   FY 2010   FY 2011
                                                                                             Total   Average

                    Convictions                                     1         7        19       27         9


                    Civil Judgments and/or Settlements             12        17         8       37      12.3


                  Source: Data provided by the Unit to OIG.


                  The Unit’s convictions increased during the review period—from 1 in
                  FY 2009 to 19 in FY 2011.
                  From FY 2009 through FY 2011, the Unit opened 262 cases
                  From FYs 2009 through 2011, the Unit opened an average of 87 cases
                  annually, with an average of 83 cases of provider fraud and 4 cases of
                  patient abuse and neglect. From FYs 2009 through 2011, the Unit closed
                  an average of 55 cases annually, averaging 52 cases of provider fraud and
                  3 cases of patient abuse and neglect.31 From FYs 2009 through 2011, the
                  Unit received an average of 98 referrals annually, with an average of
                  72 referrals of provider fraud and 26 referrals of patient abuse and neglect.
                  All reviewed case files contained documentation
                  indicating supervisory approval to open and close
                  cases and almost all case files contained
                  documentation indicating periodic supervisory
                  reviews
                  According to Performance Standard 6(b), Unit supervisors should approve
                  the opening and closing of cases to ensure a continuous case flow and the
                  timely completion of cases. Supervisory approval to open and close cases
                  demonstrates that Unit supervisors are monitoring the intake of cases and
                  the timeliness of case resolutions. Based on our review of 80 case files,
                  the Unit documented supervisory approval to both open and close cases in
                  all of the case files.
                  According to Performance Standard 6(c), supervisory reviews should be
                  “conducted periodically and noted in the case file” to ensure timely case
                  completion.32 Based on our review of 80 case files, 98 percent of Unit
                  case files contained documentation indicating periodic supervisory
                  reviews.

                  30
                     Civil Judgments and/or Settlements include those received from global cases. 

                  31
                     Closures include multiple cases opened before FY 2009. 

                  32
                     For the purposes of this report, supervisory approval to open and close a case does not

                  constitute a supervisory “review.” Periodic supervisory review indicates that a supervisor

                  reviewed a case more than once between the case’s opening and closing. 



Nevada State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00450)                             8
                  Unit professional staff performed non-Unit duties and
                  the associated costs were not subtracted from
                  claimed Unit expenditures
                  According to Performance Standard 1(a), “Unit professional staff must
                  consist of permanent employees working full-time on Medicaid fraud and
                  patient abuse matters.”33 In addition, pursuant to Federal regulations, a
                  Unit may claim Federal reimbursement only for costs attributable to the
                  establishment and operation of the Unit.34 During the review period, Unit
                  professional staff occasionally served warrants for other Nevada Attorney
                  General components. In addition, Unit professional staff performed peace
                  officer duties outside of the Unit for approximately one day per month.
                  These activities were not attributable to the investigation and prosecution
                  of Medicaid fraud or of patient abuse and neglect. Costs not associated
                  with the establishment or operation of the Unit are not subject to Federal
                  reimbursement.
                  The Unit’s policies and procedures manual was not
                  updated, and the Unit’s MOU with DHCFP did not
                  reflect current law and practice
                  The Unit’s policies and procedures manual was last updated in 2006. This
                  manual did not contain policies and procedures to address certain Unit
                  operations or financial oversight. In addition, the Unit’s June 2009
                  MOU with DHCFP includes a provision that may allow the Unit to be
                  charged for data requests made to SURS.35 That MOU also was not
                  updated to include a provision describing the referral process between the
                  Unit and DHCFP for providers who are subject to a payment suspension
                  on the basis of a credible allegation of fraud.36

                  The Unit’s policies and procedures manual was not updated to
                  reflect current Unit operations



                  33
                     “Professional staff” includes attorneys, investigators, auditors, and managers. 

                  OIG Policy Transmittal 89-1. 

                  34
                     42 CFR § 1007.19(d). 

                  35
                     Memorandum of Understanding between the Nevada Office of Attorney General and
                  the Division of Health Care Financing and Policy of the Nevada Department of Health
                  and Human Services, § 1.
                  36
                     The Affordable Care Act, § 6402(h)(2), requires State Medicaid programs, as a
                  condition of receiving FFP, to suspend payments to providers for whom there is a
                  credible allegation of fraud, unless good cause exists to not suspend payments. One way
                  to establish good cause is for the MFCU to inform the Medicaid agency that the
                  suspension would compromise or jeopardize its investigation of the provider. CMS and
                  OIG implemented this provision in revisions to 42 CFR §§ 455.23 and 1007.9(e)
                  effective March 25, 2011 (76 Fed. Reg. 5862).


Nevada State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00450)                          9
                  According to Performance Standard 3, a Unit should establish policies and
                  procedures for its operations, which should be included in a manual.
                  However, the Unit’s manual was not updated to include policies and
                  procedures for various current Unit operations, such as provider training
                  and “field projects.”37 In addition, the Unit did not have policies and
                  procedures for ensuring that indirect costs are claimed accurately.
                  Since our onsite review, the Unit provided OIG with a draft of a revised
                  policies and procedure manual that comprehensively addresses Unit
                  operations, including provider training and field projects.
                  The Unit’s MOU with DHCFP did not reflect current law and
                  practice
                  According to Performance Standard 10, Units should periodically review
                  their MOUs with the State Medicaid agency to ensure that the MOUs reflect
                  current law and practice. As required by Federal regulations, 38 the Unit had
                  an MOU with DHCFP. In the MOU, DHCFP must agree to comply with
                  42 CFR § 455.21, which includes a requirement to provide the Unit with
                  “access to, and free copies of, any records or information kept by the agency
                  or its contractors.”39 However, the MOU includes a provision that the
                  “MFCU agrees to assist SURS in obtaining any additional funding that may
                  be necessary to comply with requests from [the] MFCU.”40 This provision
                  could allow the Unit to be charged for data requests made to SURS, which
                  would be inconsistent with Federal regulations. However, the Unit Director
                  reported that the Unit has never been asked by SURS to assist in obtaining
                  additional funding for data requests.

                  In addition, the MOU that was in effect during the review period was not
                  updated to include a provision describing the referral process between the
                  Unit and DHCFP for providers who are subject to a payment suspension
                  on the basis of a credible allegation of fraud. During our onsite review, we
                  received an updated MOU from the Unit Director that includes provisions
                  for suspending provider payments based on a credible allegation of fraud.
                  The updated MOU was dated March 2012.




                  37
                     The term “field projects” refers to a variety of informal actions taken by Unit

                  investigators to gather information on providers that may be useful at a later date.

                  38
                     42 CFR § 1007.9(d).

                  39
                     42 CFR §§ 455.21(a)(2)(i) and 1007.9(d). 

                  40
                     Memorandum of Understanding between the Nevada Office of Attorney General and
                  the Division of Health Care Financing and Policy of the Nevada Department of Health
                  and Human Services, § 1.


Nevada State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00450)                            10
                  The Unit did not always comply with the MOU
                  provisions
                  Pursuant to the Unit’s MOU with DHCFP, the Unit “will, on a monthly
                  basis, inform SURS of all providers it has under investigation, all cases it
                  has settled or closed, and [provide] copies of all supporting documentation
                  of any settlement agreements reached and/or money collected.”41 Pursuant
                  to Federal regulations, State Medicaid agencies must report this
                  information to HHS at prescribed intervals. 42 The DHCFP’s MOU with
                  the Unit was structured to ensure that SURS received the pertinent Unit
                  case information monthly for this reporting purpose. However, DHCFP
                  staff indicated that the Unit did not always comply with the provisions
                  during the review period. Consequently, DHCFP was unable to provide
                  the required Unit case information to HHS in a timely manner.
                  The Unit maintained proper fiscal control of its
                  resources, but incorrectly claimed indirect costs
                  According to Performance Standard 11, the Unit Director should exercise
                  proper fiscal control over the Unit’s resources. “Control” includes
                  maintaining an equipment inventory, using generally accepted accounting
                  principles, properly reporting program income, and conducting proper
                  reporting between the Unit and its State parent agency. From
                  FY 2009 through FY 2011, the Unit reported program income in
                  accordance with applicable Federal requirements and maintained adequate
                  internal controls related to accounting, budgeting, personnel, procurement,
                  property, and equipment. In addition, most of the expenditures that the
                  Unit claimed represented allowable costs in accordance with applicable
                  Federal requirements.
                  Although the Unit maintained proper fiscal control of its resources, it
                  incorrectly claimed its indirect costs. The Unit claimed indirect costs that
                  differed from the amounts approved in the State’s cost allocation plans.
                  Specifically, the Unit either omitted or added a fiscal quarter of approved
                  costs during each year of the review period. As a result, the Unit
                  underclaimed indirect costs in FY 2009 and FY 2010, but overclaimed
                  indirect costs in FY 2011.
                  Units claim indirect costs to fund general operations, such as
                  administration; these costs are not attributable to specific purchases or to
                  other “direct” costs. Pursuant to Federal regulations,43 a “cost allocation

                  41
                     Memorandum of Understanding between the Nevada Office of Attorney General and
                  the Division of Health Care Financing and Policy of the Nevada Department of Health
                  and Human Services, § 11.
                  42
                     42 CFR § 455.17.
                  43
                     2 CFR pt. 225, Appendixes A and C.


Nevada State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00450)                          11
                  plan” identifies and allocates billing rates based on allowable costs of
                  services provided by, or for, State agencies, such as Units. Each State
                  must submit an approved cost allocation plan to HHS for each year in
                  which it claims such costs under Federal awards. These costs are
                  reimbursed by the Federal government to its benefitting State agencies.
                  Costs omitted from these plans are not reimbursable.44
                  Other Observation: Provider Outreach and “Train the
                  Trainer” Programs
                  According to Performance Standard 4, a Unit “should take steps to ensure
                  that it maintains an adequate workload through referrals from the single
                  State agency and other sources.” The Unit’s outreach program consists of
                  educational classes taught by Unit presenters to describe the various types
                  of fraud and abuse/neglect, discuss Federal and State laws regarding fraud
                  and abuse/neglect, and provide Unit contact information for the reporting
                  of Medicaid-related crime.
                  Unit management and staff highlighted the Unit’s “Train the Trainer”
                  program as being instrumental to the success of the provider outreach
                  program. “Train the Trainer” is a PowerPoint presentation given to Unit
                  investigators who are scheduled to teach the provider education classes.
                  This presentation helps to ensure that the classes are uniformly taught, that
                  all pertinent information is imparted to providers, and that Unit
                  investigators become skilled presenters.




                  44
                    Pursuant to Federal regulations, a grantee (such as a Unit) should charge only those
                  costs incurred during the specific funding period. 45 CFR § 92.23(a).


Nevada State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00450)                             12
                  CONCLUSION AND RECOMMENDATIONS
                  From FY 2009 through FY 2011, the Unit reported recoveries of
                  $13.4 million, and opened 262 cases. Unit convictions increased during
                  the review period. All reviewed case files contained documentation
                  indicating supervisory approval to open and close cases and almost all
                  case files contained documentation indicating periodic supervisory
                  reviews. The Unit also exercised proper fiscal control over its resources.
                  Finally, the Unit took steps to educate providers about fraud through a
                  provider outreach programs.
                  Additional opportunities for improvement exist. Specifically, Unit
                  professional staff performed non-Unit duties, contrary to Federal
                  regulations. The Unit’s policies and procedures manual had not been
                  updated to reflect current Unit operations. The Unit’s MOU with DHCFP
                  allowed for the Unit to be charged by DHCFP for data requests, contrary
                  to Federal regulations. The Unit also did not always comply with the
                  MOU terms. Finally, the Unit incorrectly claimed indirect costs. With the
                  exceptions of the use of Unit professional staff for non-Unit duties and an
                  MOU stipulation that the Unit agreed to help DHCFP obtain funding for
                  data requests, we found no evidence of noncompliance with applicable
                  laws, regulations, and policy transmittals.
                  We recommend that the Nevada Unit:
                  Ensure That Unit Professional Staff Perform Duties Exclusively
                  Related to Unit Operations
                  The Unit should ensure that professional staff are full-time employees who
                  work on duties exclusively related to the operation of the Unit. In
                  addition, the Unit should work with OIG’s Office of Management and
                  Policy (OMP) to determine the extent to which the Unit should reimburse
                  OIG the Federal share of unallowable personnel costs related to non-Unit
                  duties.
                  Revise Its Policies and Procedures Manual To Reflect Current
                  Unit Operations
                  The Unit should regularly update its policies and procedures manual to
                  reflect current Unit operations. The Unit should develop and incorporate a
                  procedure for ensuring that indirect costs are claimed correctly.
                  Revise Its MOU With DHCFP To Reflect Current Law and
                  Practice
                  The Unit should revise its MOU with DHCFP to remove the stipulation
                  that the Unit agrees to assist DHCFP in obtaining funding for data
                  requests.



Nevada State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00450)             13
                  Ensure That DHCFP Consistently Receives Unit Case
                  Information in a Timely Manner
                  The Unit should provide case information to DHCFP on a monthly basis
                  so that DHCFP can fulfill its reporting requirements to HHS.
                  Ensure That Indirect Costs Are Claimed Correctly
                  The Unit should work with OMP to ensure that it correctly claims indirect
                  costs on its cost allocation plan assessments. The Unit should also work
                  with OMP to determine whether it should reimburse indirect costs that
                  were incorrectly claimed during the review period.




Nevada State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00450)           14
                  UNIT COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  In written comments to our draft report, the Unit did not indicate whether
                  it concurred with each of the recommendations. However, the Unit’s
                  comments described the following actions that it has taken, or plans to
                  take, to address each of the recommendations. In its final management
                  letter, the Unit should clarify whether it concurs with the
                  recommendations.
                  Regarding our first recommendation, the Unit has ceased the
                  once-a-month rotational desk duty that is unrelated to MFCU operations
                  and is working with the OIG OMP to determine the extent to which the
                  Unit should reimburse OIG for unallowable personnel costs. The Unit did
                  not comment specifically on the other activity identified in our finding,
                  relating to the execution of search warrants.
                  Regarding our second recommendation, the Unit will periodically review
                  its policies and procedures manual to ensure that it reflects current Unit
                  operations.
                  Regarding our third recommendation, the Unit is working with DHCFP to
                  revise its MOU to reflect current law and practice.
                  Regarding our fourth recommendation, the Unit has “incorporated
                  measures” to ensure that DHCFP receives Unit case information in a
                  timely manner.
                  Regarding our fifth recommendation, the Unit is working with OMP to
                  ensure that indirect costs are claimed accurately and to determine whether
                  the Unit should reimburse indirect costs that were incorrectly claimed
                  during the review period.
                  The full text of the Unit’s comments is provided in Appendix E. We did
                  not make any changes to the report as a result of the Unit’s comments.




Nevada State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00450)             15
                  APPENDIX A
                  Performance Standards for Medicaid Fraud Control Units
                  (Unit)45
                  1. 	A Unit will be in conformance with all applicable statutes,
                      regulations and policy transmittals. In meeting this standard, the
                      Unit must meet, but is not limited to, the following requirements:
                       a.	 The Unit professional staff must consist of permanent employees
                           working full-time on Medicaid fraud and patient abuse matters.
                       b.	 The Unit must be separate and distinct from the single State
                           Medicaid agency.
                       c.	 The Unit must have prosecutorial authority or an approved formal
                           procedure for referring cases to a prosecutor.
                       d.	 The Unit must submit annual reports, with appropriate 

                           certifications, on a timely basis.

                       e.	 The Unit must submit quarterly reports on a timely basis.
                      f.	 The Unit must comply with the Americans with Disabilities Act,
                          the Equal Employment opportunity requirements, the Drug Free
                          workplace requirements, Federal lobbying restrictions, and other
                          such rules that are made conditions of the grant.
                  2. 	A Unit should maintain staff levels in accordance with staffing
                      allocations approved in its budget. In meeting this standard, the
                      following performance indicators will be considered:
                       a.	 Does the Unit employ the number of staff that was included in the
                           Unit's budget as approved by the Office of Inspector General
                           (OIG)?
                       b.	 Does the Unit employ the number of attorneys, auditors, and
                           investigators that were approved in the Unit's budget?
                       c.	 Does the Unit employ a reasonable size of professional staff in
                           relation to the State's total Medicaid program expenditures?
                       d.	 Are the Unit office locations established on a rational basis and are
                           such locations appropriately staffed?


                  45
                    59 Fed. Reg. 49080 (Sept. 26, 1994). These performance standards were in effect
                  during the time of our review period and precede the performance standards published in
                  June 2012.


Nevada State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00450)                         16
                  3. 	A Unit should establish policies and procedures for its operations,
                      and maintain appropriate systems for case management and case
                      tracking. In meeting this standard, the following performance
                      indicators will be considered:
                       a.	 Does the Unit have policy and procedure manuals?
                      b.	 Is an adequate, computerized case management and tracking
                          system in place?
                  4. A Unit should take steps to ensure that it maintains an adequate
                      workload through referrals from the single State agency and other
                      sources. In meeting this standard, the following performance
                      indicators will be considered:
                       a.	 Does the Unit work with the single State Medicaid agency to
                           ensure adequate fraud referrals?
                       b.	 Does the Unit work with other agencies to encourage fraud 

                           referrals? 

                       c.	 Does the Unit generate any of its own fraud cases?
                      d.	 Does the Unit ensure that adequate referrals of patient abuse
                          complaints are received from all sources?
                  5. 	A Unit’s case mix, when possible, should cover all significant
                      provider types. In meeting this standard, the following performance
                      indicators will be considered:
                       a.	 Does the Unit seek to have a mix of cases among all types of
                           providers in the State?
                       b.	 Does the Unit seek to have a mix of Medicaid fraud and Medicaid
                           patient abuse cases?
                       c.	 Does the Unit seek to have a mix of cases that reflect the 

                           proportion of Medicaid expenditures for particular provider 

                           groups? 

                       d.	 Are there any special Unit initiatives targeting specific provider
                           types that affect case mix?
                      e.	 Does the Unit consider civil and administrative remedies when
                          appropriate?
                  6. 	A Unit should have a continuous case flow, and cases should be
                      completed in a reasonable time. In meeting this standard, the
                      following performance indicators will be considered:
                       a.	 Is each stage of an investigation and prosecution completed in an
                           appropriate time frame?



Nevada State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00450)                  17
                       b.	 Are supervisors approving the opening and closing of 

                           investigations?

                     c.	 Are supervisory reviews conducted periodically and noted in the
                         case file?
                  7. A Unit should have a process for monitoring the outcome of cases.
                     In meeting this standard, the following performance indicators will be
                     considered:
                       a.	 The number, age, and type of cases in inventory.
                       b.	 The number of referrals to other agencies for prosecution.
                       c.	 The number of arrests and indictments.
                       d.	 The number of convictions.
                       e.	 The amount of overpayments identified.
                       f.	 The amount of fines and restitution ordered.
                       g.	 The amount of civil recoveries.
                      h.	 The numbers of administrative sanctions imposed.
                  8. 	A Unit will cooperate with the OIG and other federal agencies,
                      whenever appropriate and consistent with its mission, in the
                      investigation and prosecution of health care fraud. In meeting this
                      standard, the following performance indicators will be considered:
                       a.	 Does the Unit communicate effectively with the OIG and other
                           Federal agencies in investigating or prosecuting health care fraud
                           in their State?
                       b.	 Does the Unit provide OIG regional management, and other
                           Federal agencies, where appropriate, with timely information
                           concerning significant actions in all cases being pursued by the
                           Unit?
                       c.	 Does the Unit have an effective procedure for referring cases,
                           when appropriate, to Federal agencies for investigation and other
                           action?
                      d.	 Does the Unit transmit to the OIG, for purposes of program
                          exclusions under section 1128 of the Social Security Act, reports
                          of convictions, and copies of Judgment and Sentence or other
                          acceptable documentation within 30 days or other reasonable time
                          period?
                  9. 	A Unit should make statutory or programmatic recommendations,
                      when necessary, to the State government. In meeting this standard,
                      the following performance indicators will be considered:


Nevada State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00450)                 18
                       a.	 Does the Unit recommend amendments to the enforcement
                           provisions of the State's statutes when necessary and appropriate to
                           do so?
                       b.	 Does the Unit provide program recommendations to single State
                           agency when appropriate?
                      c.	 Does the Unit monitor actions taken by State legislature or State
                          Medicaid agency in response to recommendations?
                  10. 	A Unit should periodically review its memorandum of
                      understanding (MOU) with the single State Medicaid agency and
                      seek amendments, as necessary, to ensure it reflects current law
                      and practice. In meeting this standard, the following performance
                      indicators will be considered:
                       a.	 Is the MOU more than 5 years old?
                       b.	 Does the MOU meet Federal legal requirements?
                       c.	 Does the MOU address cross-training with the fraud detection staff
                           of the State Medicaid agency?
                      d.	 Does the MOU address the Unit’s responsibility to make program
                          recommendations to the Medicaid agency and monitor actions
                          taken by the Medicaid agency concerning those recommendations?
                  11. The Unit director should exercise proper fiscal control over the
                      Unit resources. In meeting this standard, the following performance
                      indicators will be considered:
                       a.	 Does the Unit director receive on a timely basis copies of all fiscal
                           and administrative reports concerning Unit expenditures from the
                           State parent agency?
                       b.	 Does the Unit maintain an equipment inventory?
                      c.	 Does the Unit apply generally accepted accounting principles in its
                          control of Unit funding?
                  12. A Unit should maintain an annual training plan for all
                      professional disciplines. In meeting this standard, the following
                      performance indicators will be considered:
                       a.	 Does the Unit have a training plan in place and funds available to
                           fully implement the plan?
                       b.	 Does the Unit have a minimum number of hours training
                           requirement for each professional discipline, and does the staff
                           comply with the requirement?
                       c.	 Are continuing education standards met for professional staff?



Nevada State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00450)                19
                       d. Does the training undertaken by staff aid to the mission of the
                          Unit?




Nevada State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00450)              20
                   APPENDIX B
                  Referrals of Provider Fraud and Patient Abuse and Neglect to
                  the Nevada Medicaid Fraud Control Unit by Source, Fiscal
                  Years 2009 Through 2011
                  Table B-1: Total Medicaid Fraud Control Unit Fraud and Abuse Referrals
                  and Annual Average

                                                                                                                           Annual
                    Case Type                              FY 2009          FY 2010       FY 2011       3-Year Total
                                                                                                                           Average
                    Patient Abuse and Neglect                      37             16             24               77              26
                    Provider Fraud                                 51             92             74              217              72
                     Total                                         88             108            98              294              98

                  Source: Office of Inspector General (OIG) analysis of Nevada Fraud Control Unit (Unit) Quarterly Statistical
                  Reports, fiscal years (FY) 2009 through 2011.


                  Table B-2: Unit Referrals, by Referral Source

                                              FY 2009                   FY 2010                FY 2011
                                                     Abuse                    Abuse                    Abuse               Percentage
                    Referral
                                         Fraud           &       Fraud            &       Fraud            &     Total          of All
                    Source
                                                    Neglect                  Neglect                  Neglect                Referrals
                    Private
                                             20             2         30              3       31             2     88             29.9
                    Citizens*
                    Providers                11             1         13              0         8            2     35             11.9

                    Other                     6             2         17              1         7            2     35             11.9
                    Long-Term
                    Care                      2           28            1             3         0            0     34             11.6
                    Ombudsman
                    Single State
                    Medicaid                  5             0         16              0       12             0     33             11.2
                    Agency
                    Law
                                              1             2           2             6         1          10      22              7.5
                    Enforcement
                    OIG                       1             0         12              0         5            0     18              6.1
                    Other State
                                              5             0           1             0         5            0     11              3.7
                    Agencies
                    State Survey
                    and
                                              0             2           0             2         2            1         7           2.4
                    Certification
                    Agency
                    Adult
                    Protective                0             0           0             0         2            4         6           2.1
                    Services
                    Licensing
                                              0             0           0             1         1            3         5           1.7
                    Board
                      Total                  51           37          92           16         74           24     294             100
                      Annual
                                                          88                      108                      98
                      Total
                      Annual
                                                                                                           98
                      Average
                  Source: OIG analysis of Unit Quarterly Statistical Reports, FYs 2009 through 2011.
                  *Includes phone calls to the Unit’s main number, emails to the Unit, electronic fraud report
                  submissions, and walk-in referrals.




Nevada State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00450)                                                    21
                  APPENDIX C
                  Investigations Opened and Closed by Provider Category and
                  Case Type, Fiscal Years 2009 Through 2011
                  Table C-1: Total Annual Opened and Closed Investigations

                                                                                                                           Annual
                   Case Type                        FY 2009          FY 2010       FY 2011       3-Year Total
                                                                                                                          Average*
                   Opened                                  49             99           114               262                   87
                      Patient Abuse and
                                                            3              5             5                  13                  4
                      Neglect
                      Provider Fraud                       46             94           109               249                   83


                   Closed                                  37             63            66               166                   55
                      Patient Abuse and
                                                            3              3             4                  10                  3
                      Neglect
                      Provider Fraud                       34             60            62               156                   52

                  Source: Unit response to OIG data request.
                  *Averages in this table are rounded.


                  Table C-2: Total Investigations, by Case Type

                                                               FY 2009                   FY 2010                    FY 2011
                    Case Type
                                                         Opened        Closed       Opened         Closed        Opened     Closed
                    Patient Abuse and Neglect                   3              3             5          3             5          4
                    Provider Fraud                              46         34            94            60           109         62
                      Total                                     49         37            99            63           114         66

                  Source: Unit response to OIG data request.


                  Table C-3: Patient Abuse and Neglect Investigations


                    Provider Category                          FY 2009                   FY 2010                    FY 2011

                                                         Opened        Closed       Opened         Closed        Opened     Closed
                    Home Health Aides                           0              0             1          0             1          0

                    Nursing Facilities                          0              0             0          0             1          0
                    Other Long-Term Care
                                                                2              3             3          2             1          4
                    Facilities
                    Other                                       1              0             1          1             2          0

                      Total                                      3             3             5          3             5          4

                  Source: Unit response to OIG data request.




Nevada State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00450)                                                  22
                  Table C-4: Provider Fraud Investigations

                    Provider Category                      FY 2009              FY 2010           FY 2011
                    Facilities                        Opened        Closed   Opened   Closed   Opened   Closed
                    Hospitals                                  1         0        3        2        3        0
                    Other                                       0        1        1        0        0        1
                    Practitioners                     Opened        Closed   Opened   Closed   Opened   Closed
                    Counselors/Psychologists                   0        0        10        0        9        5
                    Dentists                                   2         1        1        3        0        2
                    Doctors of Medicine or
                                                                1        2        0        2        2        1
                    Osteopathy
                    Other                                       0        2        1        0        0        1
                    Medical Support                   Opened        Closed   Opened   Closed   Opened   Closed
                    Durable Medical
                                                                3        6        7        3        6        4
                    Equipment Suppliers
                    Home Health Care
                                                                1        3        2        2        0        2
                    Agencies
                    Home Health Care Aides                     7         6        8       14        7       12
                    Laboratories                               0         0        3        1        1        2
                    Pharmaceutical
                                                               23       11       53       33       78       27
                    Manufacturers

                    Pharmacies                                 6        0         2       0         0        1

                    Transportation Services                    0         1        0        0        0        0
                    Other                                       0        1        1        0        1        1
                    Program Related                   Opened        Closed   Opened   Closed   Opened   Closed
                    Billing Companies                          1        0         0       0         0        1
                    Managed Care                               0         0        0        0        0        1
                    Other                                       1        0        2        0        2        1
                      Total                                    46       34       94       60      109       62

                  Source: Unit response to OIG data request.




Nevada State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00450)                              23
                  APPENDIX D
                  Case File Review Population, Sample Size Counts, and
                  Confidence Interval Estimates
                  Table D-1 shows population and sample counts and percentages by case
                  type. Note that both samples have percentages of case types similar to the
                  general population, though sample counts for some case types are very
                  small. Because of these small sample sizes, we cannot reliably generalize
                  what we found in our sample review to each case type in the population,
                  and only our overall estimates project to the population of all case files.
                  We estimated the 4 population values for all 262 case files from the results
                  of our review of the case files selected in our simple random samples.
                  Table D-2 includes the estimate descriptions, sample sizes, point
                  estimates, and 95-percent confidence intervals for these four estimates.

                  Table D-1: Population and Sample Size Counts for Case Types
                                                       Population Count                Sample Count*             Sample Count*
                    Case Type
                                                         and (%) n=262                  and (%) n=80              and (%) n=45

                    Closed                                        88 (34%)                     30 (38%)               14 (31%)

                    Open                                        174 (66%)                      50 (62%)               31 (69%)




                    Civil                                       199 (76%)                      55 (69%)               32 (71%)

                    Criminal                                      63 (24%)                     25 (31%)               13 (29%)




                    Global                                      190 (72%)                      54 (67%)               32 (71%)


                    Patient Abuse/Neglect                          13 (5%)                       6 (8%)                 2 (5%)

                    Provider Fraud                                59 (23%)                     20 (25%)               11 (24%)

                  Source: The Nevada Unit provided a list of all case files open during FYs 2009 through 2011.
                  *OIG generated this random sample.




Nevada State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00450)                                              24
                  Table D-2: Confidence Intervals for Key Case File Review Data
                                                                           Point   95-Percent Confidence
                    Estimate Description          Sample Size
                                                                        Estimate                 Interval
                    Case Files With
                    Documented Supervisory                   80           100.0%             96.2–100.0%
                    Approval for Opening
                    Case Files With
                    Documented Supervisory                   30           100.0%             89.8–100.0%
                    Approval for Closing
                    Case Files With
                    Documentation Indicating
                                                             80            97.5%              92.0–99.2%
                    at Least One Supervisory
                    Review
                    Case Files With
                    Documentation Indicating
                                                             80            97.5%              92.0–99.2%
                    Periodic Supervisory
                    Review




Nevada State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00450)                         25
                  APPENDIX E
                  Unit Comments




Nevada State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00450)   26
Nevada State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00450)   27
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Timothy S. Brady, Regional
                  Inspector General for Evaluation and Inspections in the San Francisco
                  regional office, and Michael Henry, Deputy Regional Inspector General.
                  Matthew DeFraga served as the lead analyst for this study. Central office
                  staff who provided support include Thomas Brannon, Kevin Farber, and
                  Sherri Weinstein. Office of Audit Services staff who provided support
                  include Gupa Goha, Ryan Moul, and Clarissa Yu. Office of Investigations
                  staff who provided support include Ken Benson.




Nevada State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00450)           28
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
